Andrew Tutt
+1 202.942.5242 Direct
Andrew.Tutt@arnoldporter.com

July 12, 2021

Via Electronic Filing
Mr. Scott Harris
Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Lozada v. Teel, S. Ct. No. 20-1471

Dear Mr. Harris:
I am counsel of record for the respondent in this case. Petitioner filed a petition for
certiorari in this matter on April 16, 2021. The Court requested a response on
June 22, 2021. That response is currently due on July 22, 2021. Pursuant to Rule 30.4 of
the Rules of this Court, I write to request an extension of time of 31 days, to and including
August 22, 2021, in which to file the brief in opposition.
This extension is necessary because I am currently working on multiple time
sensitive filings in federal courts nationwide including a reply brief in Wooden v. United
States, S. Ct. No. 20-5279, a pending merits case in this Court, due on July 28, 2021. This
extension will not change the conference at which the petition is considered or otherwise
prejudice petitioner.
Sincerely,
By /s/ Andrew Tutt
Andrew T. Tutt
Counsel for Respondent
Dudley Teel
cc: See Attached Service List

20-1471
JONATHAN LOZADA
DUDLEY TEEL
SUMMER MARIE BARRANCO
PURDY, JILLY, GIUFFREDA, BARRANCO & JISA, P.A.
2455 EAST SUNRISE BOULEVARD
SUITE 1216
FORT LAUDERDALE, FL 33304
SUMMER@PURDYLAW.COM

2

